Case: 19-40916

Document: 00515597117

Page: 1

Date Filed: 10/09/2020

i QSntteb States Court of appeal#
V
for tlje Jftftf) Ctrcutt
A True Copy
Certified order issued Oct 09, 2020

No. 19-40916

W.
Clerk, V.S. Court of£ppeals, Fifth Circuit

Cesar Gomez,
Petitioner—Appellant^
versus
Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:18-CV-89

ORDER:
Cesar Gomez, Texas prisoner # 1839985, moves for a certificate of
appealability (COA) to appeal the district court’s denial of his 28 U.S.C.
§ 2254 application challenging his conviction for continuous sexual abuse of
a child. In his COA application, he raises the following claims: (i) the trial
court’s jury instructions were erroneous; (ii) the trial court erred when it
granted the State’s motion to amend his indictment; (iii) the trial court erred
by admitting certain photographs into evidence during the trial on
punishment; (iv) the prosecutor committed misconduct by making improper
comments in his opening statement and failing to disclose various police

Case: 19-40916

Document: 00515597117

Page: 2

Date Filed: 10/09/2020

No. 19-40916

reports to the defense; and (v) the prosecutor committed misconduct by
seeking to admit into evidence various firearms and firearm accessories.
In his COA application, Gomez does not raise many of the claims that
he raised in the district court. Accordingly he has abandoned these claims.
See Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999); see also Matchett v.
Dretke, 380 F.3d 844, 848 (5th Cir. 2004). Furthermore, he raises for the
first time in his COA application his claim that his indictment was defective
because it employs the term “on or about” when referring to various
pertinent dates. Because he failed to raise this claim in his § 2254 application,
we do not have jurisdiction to consider it. See Black v. Davisy 902 F.3d 541,
545 (5th Cir. 2018).
As to Gomez's remaining claims, a COA may issue “only if the
applicant has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 336
(2003). An applicant satisfies this standard by demonstrating “that
reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,
484 (2000). Gomez has not met this standard.
Accordingly, his motion for a COA is DENIED. His motion for leave
to proceed in forma pauperis is also GRANTED.

/s/Patrick E. Higginbotham
Patrick E. Higginbotham
United States Circuit Judge

2

Case 6:18-cv-00089-RAS-JDL Document 47 Filed 09/29/19 Page 1 of 3 PagelD #: 2152

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CESAR GOMEZ, #1839985

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cv89

ORDER
Before the court is Petitioner’s motion to alter or amend the judgment (Dkt. #44). On
June 17, 2019, this court dismissed Petitioner’s federal habeas petition with prejudice (Dkt. #43).
The court also denied Petitioner a certificate of appealability sua sponte.
In this timely motion to alter or amend the final judgment, Petitioner argues that the court
“failed to make a proper final determination after the entry of the Magistrate’s Report, and
objections to the same by the Petitioner.” He insists that the court allowed the final
disposition of his case to rest “wholly upon the Magistrate’s Report and Recommendation,”
without making “any specific determination[s].” Petitioner then repeats his habeas claims.
A. Standard of Review
The United States Supreme Court discussed the purpose of Rule 59(e) as follows:
Rule 59(e) was added to the Federal Rules of Civil Procedure in 1946. Its draftsmen
had a clear and narrow aim. According to the accompanying Advisory Committee
Report, the Rule was adopted to “mak[e] clear that the district court possesses the
power” to rectify its own mistakes in the period immediately following entry of
judgment. . .. Consistent with this original understanding, the federal courts have
invoked Rule 59(e) only to support reconsiderations of matters properly
encompassed in a decision on the merits.
White v. New Hampshire Dept, of Employment Sec., 455 U.S. 445, 450-51 (1982) (citations
omitted). Furthermore, “Rule 59(e) permits a court to alter or amend a judgment, but it ‘may not

1

APPENDIX B

(3 pgs.)

Case 6:18-cv-00089-RAS-JDL Document 47 Filed 09/29/19 Page 2 of 3 PagelD #: 2153

be used to relitigate old matters, or to raise arguments or present evidence that could have been
raised prior to the entry of judgment.” Exxon Shipping Co. v. Baker, 554 U.S. 471,485 n.5 (2008)
(citation omitted).
The Fifth Circuit has observed that a Rule 59(e) motion “servefs] the narrow purpose of
allowing a party to correct manifest errors of law or fact or to present newly discovered evidence.”
Waltman v. Int’l Paper Co., 875 F.2d 468, 473 (5th Cir. 1989) (citation and internal quotations
omitted). A Rule 59(e) motion “is not the proper vehicle for rehashing evidence, legal theories, or
arguments that could have been offered or raised before the entry of judgment.” Templet v.
HydroChem, Inc., 367 F.3d 473, 479 (5th Cir.) (citation omitted), cert, denied, 543 U.S. 976
(2004). The Fifth Circuit has repeatedly held that the purpose of a Rule 59(e) motion is not to
rehash arguments that have already been raised before a court. See, e.g., Naquin v. Elevating
Boats, L.L.C., 817 F.3d 235, 240 n.4 (5th Cir. 2016); Winding v. Grimes, 405 F. App’x 935, 937
(5th Cir. 2010).
Moreover, “[reconsideration of a judgment after its entry is an extraordinary remedy that
should be used sparingly.” Templet, 367 F.3d at 479 (citations omitted). The decision to alter
or amend a judgment is committed to the sound discretion of the district court and will not
be overturned absent an abuse of discretion. Southern Contractors Group, Inc. v. Dynalectric
Co., 2 F.3d 606, 611 & n.18 (5th Cir. 1993).
B. Discussion and Analysis
Petitioner’s motion should be denied. His conclusory assertions that the court did not
conduct a de novo review and simply adopted the Report and Recommendation wholesale is
without merit. In the order of dismissal, the court stated that it conducted a careful de novo
review after reviewing both the proposed Report and the record, (Dkt. #42).
identifies no
2

Petitioner

Case 6:18-cv-00089-RAS-JDL Document 47 Filed 09/29/19 Page 3 of 3 PagelD #: 2154

evidence to suggest otherwise. See, e.g., Okpala v. Thomas, 697 F. App’x 838, 838 (5th Cir. 2017)
(unpublished) (“First, Okpala asserts that the district court improperly adopted the magistrate
judge’s report and recommendation without conducting a de novo review of his objections to the
report and recommendation. The district court stated that it had conducted an independent review
of the record. We assume that the district court did its statutory commanded duty in the absence
of evidence to the contrary.”) (internal quotations and citation omitted).
Because the court conducted an independent, de novo review of Petitioner’s case—
including his objections—Petitioner's motion to alter or amend the judgment is denied.
Accordingly, it is
ORDERED that Petitioner’s motion to alter or amend the judgment (Dkt. #44) is DENIED.

SIGNED this the 29th day of September, 2019.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

3

Case: 6:18-cv-00089-RAS-JDL

Document #: 42-1

Date Filed: 06/17/2019

Page lot 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CESAR GOMEZ, #1839985

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cv89

ORDER OF DISMISSAL
Petitioner Cesar Gomez, an imnate confined at the Eastham Unit within the Texas
Department of Criminal Justice (TDCJ) proceeding pro se, filed this petition for a writ of habeas
corpus pursuant to § 2254 complaining of the legality of his Smith County criminal conviction.
The case was referred to the United States Magistrate Judge, the Honorable Judge John D. Love,
for findings of fact, conclusions of law, and recommendations for the disposition of the case.
On April 1, 2019, Judge Love issued a Report, (Dkt. #33), recommending that Petitioner’s
habeas petition be denied and further recommended that Petitioner be denied a certificate of
appealability sua sponte. A copy of this Report was sent to Petitioner at his address. After
receiving an extension of time in which to file his objections, Petitioner filed timely objections,
(Dkt. #40).
The court has conducted a careful de novo review of record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(l) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the court has
determined that Report of the United States Magistrate Judge is correct and Petitioner’s objections
are without merit. Accordingly, it is
APPENDIX
1

C (2 pgs.)

Case: 6:18-cv-00089-RAS-JDL

Docurn,ent#: 42-1

Date Filed: 06/17/2019

Page 2 of 2

ORDERED that Petitioner’s objections, (Dkt. #40), are overruled. The Report of the
United States Magistrate Judge, (Dkt. #33), is ADOPTED as the opinion of the District Court. It
is also
ORDERED that the above-styled habeas petition is DENIED and Petitioner’s case is
DISMISSED with prejudice. Further, it is
ORDERED that Petitioner is DENIED a certificate of appealability sua sponte. Finally,
it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED.

SIGNED this the 17th day of June, 2019.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

2

>' Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 1 of 38

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CESAR GOMEZ, #1839985

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cv89

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Cesar Gomez, an inmate confined at the Eastham Unit within the Texas
Department of Criminal Justice (TDCJ) proceeding pro se, filed this petition for a writ of habeas
corpus pursuant to § 2254 complaining of the legality of his Smith County criminal conviction.
The case was referred to the undersigned United States Magistrate Judge for findings of fact,
conclusions of law, and recommendations for the disposition of the case. For the foregoing
reasons, the Court recommends that Gomez’s petition be denied.
I. Procedural Background
On February 6, 2013, a jury found Gomez guilty of continuous sexual abuse of a child
younger than fourteen of age, a first-degree felony. Gomez was sentenced to life imprisonment
without the possibility of parole. He filed a direct appeal, and the Twelfth Court of Appeals
affirmed his conviction in a published opinion. See Gomez v. State, 459 S.W.3d 651 (Tex. App.—
Tyler 2015, pet. ref d). The Texas Court of Criminal Appeals refused his petition for discretionary
review on June 17,2015. Subsequently, the United States Supreme Court denied Gomez’s petition
for a writ of certiorari. See Gomez v. Texas, 136 S.Ct. 1201 (2016) (Mem.).

APPENDIX D (38 pgs.)
1

r Case: 6:18-cv-00089-RAS-JDL

Document #: 3,3-1

Date Filed: 04/01/2019

Page 2 of 38

Gomez filed a state application for a writ of habeas corpus, which was denied by the Texas
Court of Criminal Appeals, without a written order, on October 25,2017. (Dkt. #26, pg. id. #1769).
This timely federal habeas petition follows.
II. Factual Background
The Twelfth Court of Appeals articulate the facts of Gomez’s case as follows:
Appellant began sexually abusing his daughter, F.G., in 2006 when she was eight years
old. According to F.G., the sexual abuse continued until March 1, 2012, when she was
fourteen years old. On March 5, 2012, she made an outcry statement to a school counselor
concerning Appellant’s sexually abusing her. As a result, Appellant was arrested and
confessed in a videotaped interview to having sexually assaulted F.G. multiple times within
the preceding six month period as a result of being intoxicated. .Officers searched
Appellant’s home and discovered, among other things, an expensive video surveillance
system with multiple cameras, one of which was aimed at F.G.’s bed and the other of which
was aimed at the bed in the master bedroom.
s'

Appellant was charged by indictment with aggravated sexual assault and pleaded “not
guilty.” The indictment was later amended to charge Appellant with continuous sexual
abuse of a child under fourteen years of age. The matter proceeded to a jury trial, following
which the jury found Appellant “guilty” as charged. After a trial on punishment, the jury
assessed Appellant’s punishment at imprisonment for life without the possibility of parole.
The trial court sentenced Appellant accordingly, and this appeal followed.
Gomez, 459 S.W.3d at 656.
III. Gomez’s Federal Habeas Claims
In his federal petition, Gomez first argues that the criminal statute under which he was
convicted is unconstitutional and that the jury charge during the guilt/innocence phase included an
improper comment on the evidence. He also raises several claims concerning alleged ineffective
assistance of counsel and trial court error. Specifically, he maintains that counsel was ineffective
for (1) incorrectly advising him that he was eligible for community supervision; (2) failing to
object to several occurrences throughout his trial; (3) failing to investigate; and (4) failing to call
witness. Gomez further insists that the prosecutor committed prosecutorial misconduct in a variety
of ways. Finally, Gomez states that his indictment was improperly amended.
2

*' Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 3 of 38

The Respondent has been ordered to answer and has done so, (Dkt. #23). Respondent
maintains that all of Gomez’s claims fail on the merits. Gomez has filed a reply to that response,
(Dkt. #31), reurging many of his habeas claims.
IV. Standard of Review
1. Federal Habeas Review
The role of federal courts in reviewing habeas petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed several habeas corpus reforms, a petitioner who is in custody “pursuant to the judgment
of a State court” is not entitled to federal habeas relief with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the

3

r Case: 6:18-cv-00089-RAS-JDL

Document #: 3,3-1

Date Filed: 04/01/2019

Page 4 of 38

doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal review under the AEDPA
is therefore highly deferential: The question is not whether we, in our independent judgment,
believe that the state court reached the wrong result. Rather, we-ask only whether the state court’s
judgment was so obviously incorrect as to be an objectively unreasonable resolution of the
claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to a
presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465,490 (5th Cir. 2007).
2. Ineffective Assistance of Counsel
To show that trial counsel was ineffective, Gomez must demonstrate both deficient
performance and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In
evaluating whether an attorney’s conduct was deficient, the question becomes whether the
attorney’s conduct fell below an objective standard of reasonableness based on “prevailing norms
of practice.” See Loden v. McCarty, 778 F.3d 484, 494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performano

-the outcome or result of the

proceedings would have been different. Id:, see also Reed v. Stephens, 739 F.3d 753,773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability”'is
one that is sufficient to undermine confidence in the outcome of the proceedings. Strickland, 466
U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
performance and prejudice. See Charles v. Stephens, 736 F.3d 380,388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application

4

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 5 of 38

whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013) (“Both the Strickland
standard and the AEDPA standard are highly deferential, and when the two apply in tandem,
review is doubly so.”) (internal quotations and citation omitted).
V. Discussion and Analysis
For cohesion and judicial economy purposes, the Court will combine Gomez’s related
claims.
A. Trial Court Error and Prosecutorial Misconduct
1. Constitutionality of Texas’ Continuous Sexual Abuse Statute
In his first claim, Gomez opines that he was “convicted under an unconstitutional statute
designed to circumvent multiple protections of the United States Constitution.” He insists that the
statute allows the State to highlight extraneous offenses that were allegedly committed. Gomez
also complains that the statute does not require a unanimous verdict as to the “specific acts of
sexual abuse [that] were committed by the defendant or the exact date when those acts were
committed.” He further states that the statute does not even require the State to prove that a specific
offense occurred. Gomez raised this claim in his state habeas application, which was denied
without a written order.
Gomez’s claims are without merit. First, the United States Supreme Court has repeatedly
rejected his argument that due process requires jury unanimity. See Johnson v. Louisiana, 406
U.S. 356, 359 (1972) (“We note at the outset that this Court has never held jury unanimity to be a
requisite of due process of law.”); see also McDonald v. City of Chicago, 111, 561 U.S. 742 n.14
(2010) (explaining that the Court’s holding in Johnson that “although the Sixth Amendment right
to trial by jury requires a unanimous jury verdict in federal criminal trials, it does not require a

5

r
Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 6 of 38

unanimous jury verdict in state criminal trials.”) (emphasis supplied). This is important because
our review under the AEDPA is to examine potential federal constitutional issues.
Moreover, Texas courts have routinely found that the continuous sexual abuse statute does
• \

not violate Texas’ jury unanimity requirement and is constitutional because, as Respondent
correctly explains, the individual acts of abuse are manner and means—and not.an element-of the
offense. See, e.g., Fulmer v. State, 401 S.W.3d 305 (Tex.App.—San Antonio 2013, pet. ref d)
(holding that “the individual acts of sexual abuse are manner and means, not [elements] of the
offense. Therefore, unanimity [is] required only as to a finding that [the defendant] committed
two or more acts of sexual abuse—not as to which specific acts he committed.”); see also Martin
v. State, 335 S.W.3d 867, 872-73 (Tex.App.—Austin 2011, pet. ref d), cert, denied, 568 U.S. 1026
(2012) (“We held that because the jury in that case (like the jury in this case) was required to
unanimously find that the defendant committed two or more of the alleged acts of sexual abuse,
the defendant’s right to a unanimous jury verdict was not violated.”) (citing Jacobsen v. State, 325
S.W.3d 733, 739 (Tex.App.—Austin 2010, no pet.)). Contrary to Gomez’s claim, the statute does
require that the jury find that he committed two or more acts of sexual abuse.
Here, the record reflects that the trial court instructed the jury that they were required to
reach a unanimous verdict concerning whether Gomez committed two or more acts of sexual abuse
during the time period that was defined—but not a unanimous verdict as to which specific acts of
sexual abuse or the exact dates. (Dkt. #25, pg. id. #290). Such instruction tracks the applicable
statute and cases mentioned above.
Furthermore, the record shows that the jury reached a unanimous verdict of guilty during
the guilt and innocence phase. (Dkt. #25, pg. id. #1322). Moreover, the jury reached a unanimous

6

.

Case: '6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 7 of 38

verdict on a sentence of life imprisonment. (Dkt. #25, pg. id. #1407). Therefore, Gomez’s
complaints concerning lack of unanimity do not apply to his own case.
Furthermore, because Gomez raised this exact issue in his state habeas application—which
the Texas Court of Criminal Appeals denied without a written order—that denial is entitled to
deference. As it stands, Gomez failed to demonstrate how the state court’s adjudication of this
claim was unreasonable or contrary to federal law.
To the extent that Gomez insists that this Court cannot rely on the state habeas court’s
denial because it did not enter express findings of fact or conclusions of law, the Court notes that
the failure to enter express findings of fact does not preclude deference under the AEDPA because
“[a]s a federal court, we are bound by the state habeas court’s factual findings, both implicit and
explicit.” See Young v. Dretke, 356 F.3d 616,629 (5th Cir. 2004); see also Becerril v. Quarterman,
2007 WL 1701869 *4 (S.D.Tex.—Houston Jun. 11,2007) (“The Texas Court of Criminal Appeals
adopted the trial court’s findings when it denied relief. A federal court is bound by the state habeas
court’s factual findings, both implicit and explicit.”) (citation omitted).'
In Texas, when the Court of Criminal Appeals denies a state habeas petition—with or
without an order or opinion—the “denial” means that the court addressed and rejected the merits
of a particular claim. See Ex parte Torres, 943 S.W.2d 469, 472 (Tex.Crim.App. 1997) (“In our
writ jurisprudence, a ‘denial’ signifies that we addressed and rejected the merits of a particular
claim while a ‘dismissal’ means that we declined to consider the claim for reasons unrelated to the
claims merits.”); Miller v. Johnson, 200 F.3d 274, 281 (5th Cir. 2000) (“Under Texas law, a denial
of relief by the Court of Criminal Appeals serves as a denial of relief on the merits of the claim.”).
Accordingly, these claims should be dismissed.

7

r

Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 8 of 38

2. Jury Charge
Next, Gomez argues that the jury charge for the guilt/innocence phase “included an
improper comment on the evidence, and gave incorrect instructions concerning the period of
limitations periods as [sic] under law.” Specifically, he takes issue with the following portion—
as he outlines the charge:
You are instructed that members of the jury are not required to agree unanimously on which
specific acts of sexual abuse, if any, were committed by the defendant or the exact date
which those acts were committed, if any.”
(Dkt. #1, pg. 12) (emphasis supplied by Gomez). He insists that the inclusion of “if any” eliminates
the need for the jury to conclude that any act of sexual abuse was committed, or even a date of
offense.
Improper jury instructions in state criminal trials do not generally form the basis for federal
habeas relief. See Estelle v. McGuire, 502 U.S. 62, 71-72 (1991). Rather, the relevant inquiry on
claims of improper jury instructions turns on whether there was prejudice of constitutional
magnitude. See Galvan v. Cockrell, 293 F.3d 760, 764 (5th Cir. 2002).
In examining whether a jury instruction was prejudicial, the question becomes “whether
the ailing instruction by itself so infected the entire trial that the resulting conviction violates due
process . . . , not merely whether the instruction is undesirable, erroneous, or even universally
condemned.” See Henderson v. Kibble, 431 U.S. 145, 154 (1977).
Here, Gomez’s assertion—that the inclusion of “if any” was improper—is misguided. To
the contrary, the inclusion of “if any” in these instructions was, presumably, to protect Gomez’s
presumption of innocence. In other words, “if any” simply means “if any sexual acts were
committed,” which properly protects Gomez’s presumption of innocence until the jury makes its
)

8

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 9 of 38

decision. Gomez does not explain how the inclusion of “if any” language actually harmed his trial.
This claim should be dismissed, as it is wholly without merit.
*

v

Turning to Gomez’s complaint regarding the period of limitations in his case, the Court

notes that this claim is similarly meritless. A liberal reading of his petition shows that Gomez
• alleges that the charge allowed the jury to convict him based on offenses committed outside the
timeframe permitted by the statute. Gomez raised this claim on direct appeal, and the appellate
court issued the last reasoned opinion on this issue, which this Court reviews to determine whether
the denial of this claim was contrary to federal law or an unreasonable application thereof. See
Yist v. Nunnemaker, 501 U.S. 797, 803 (1991). Ultimately, the court determined that while there
was an erroneous paragraph within the instruction regarding time, the charge included a proper
charge immediately following the erroneous paragraph and a precise limiting instruction request
by Gomez.
The appellate court analyzed this issue as follows:
The offense of continuous^sexual-abuse of a young child became effective on September
1, 2007, and the statutfe^joes not apply to acts of sexual abuse committed before that date.
See Kuhn, 393 S.W.3d ar-254.—Moreover, the statute does not apply to an offense
committed against a child fourteen years of age or older. See Tex. Penal Code Ann. §
21.01(b)(2) (West Supp. 2014). Appellant contends that the jury charge was erroneous
because it potentially allowed jurors to convict him based on acts he committed prior to
September 1, 2007, or after November 21,2011. Specifically, in the abstract portion of the
charge, the jury was instructed as follows:
You are instructed that the State is not bound by the specific date which the
offense, if any, is alleged in the indictment to have been committed, but that
a conviction may be had upon proof that the offense, if any, was committed
at any time prior to the filing of the indictment which is within the period
of limitations. There is no limitation period to the offense of continued
sexual abuse of a child.
This is an erroneous instruction. See, e.g., Kuhn, 393 S.W.3d at 524; Martin v.
State, 335 S.W.3d 867, 876 (Tex.App.—Austin 2011, pet. ref d).
Egregious Harm Analysis
9

* Case: 6:18-cv-00089-RAS-JDL

Document #: 3,3-1

Date Filed: 04/01/2019

Page 10 of 38

Because Appellant did not object to this instruction, we apply the “egregious harm”
standard wherein reversal is required only if the charge error was “so egregious and created
such harm that defendant has not had a fair and impartial trial.” Barrious v. State, 283
S.W.3d 348, 350 (Tex. Crim. App. 2009).

The Court’s Charse
Based on our review of the entirety of the court’s charge, we first note that the application
paragraph, which immediately precedes the erroneous abstract paragraph, correctly
instructed the jury to convict Appellant, if must find beyond a reasonable doubt that he,
during a period that was 30 days or more days in duration, to-wit: from
about September 1, 2006, through November 21, 2011, when the defendant
was 17 years of age or older, commit two or more acts of sexual abuse
against a child younger than 14 years of age.
As a result, the application paragraph mitigates against finding that any error in the abstract
portion of the charge was egregious. See Kuhn, 393 S.W.3d at 529-30; see also Medina v.
State, 7 S.W.3d 633,640 (Tex. Crim. App. 1999). Moreover, similar to the charge in Kuhn,
the first paragraph of the charge in the instant case correctly instructed the jury that the
offense was alleged to have been committed from on or about September 1, 2007, through
November 21, 2011. Lastly, the trial court included in the charge as Paragraph 11 the
following limiting instruction in the precise language requested by Appellant.
You are instructed that if there is any testimony before you in this case
regarding the defendant’s having committed offenses other than the offense
alleged against him in the indictment in this case, you cannot consider said
testimony for any purpose unless you find and believe beyond a reasonable
doubt that the defendant committed such other offenses, if any were
committed[,] and even then[,] you may only consider the same in
determining the motive, opportunity, intent, preparation, plan, knowledge,
identity of the defendant or absence of mistake or accident, if any, in
connection with the offense, if any, alleged against him in the indictment in
this case, and for no other purpose.
See Kuhn, 393 S.W.3d at 530 (considering trial court’s use of detailed limiting instruction
in jury charge concerning evidence of uncharged offenses or bad acts). Our reading of the
charge as a whole weighs against a conclusion Applicant was denied a fair and impartial
trial.

10

' Case: 6:18-cv-00089-RAS-JDL

Document #: 3.3-1

Date Filed: 04/01/2019

Page 11 of 38

Gomez, 459 S.W.3d at 660-61. The appellate court further highlighted how the prosecuting
attorney, during closing, denoted the distinction between the charged acts and the acts occurring
outside the time frame:
When did it begin? 2006. And, see, you’re entitled to know about everything. You’re
entitled to know about when it started and when it ended, because it shows his intent, it
shows his common scheme and plan, it shows his motivation. And, you know, motivation
is real simple. Fora child molester, for a filthy child molester, real simple: It’s a kid, fair
game, period. And it goes to establish, you know, his state of mind.
So that’s why you’re entitled to know about the start date and end date.
Id. at 662. The prosecuting attorney then directed the jury to the specific dates within the
indictment, the effective date of the statute, and the correctly worded application paragraph in the
instructions:
We have to prove that the defendant, whom she identified, had sex with her, had
continuous sex with her from September the 1st of 2007 through November 21st,
2011.
3-

And let me tell you what the evidence shows. The evidence shows that he began
preying on her innocence in 2006, okay? It never ended. It never ended until March
of 2012. She told—she gave her outcry on March the 5th of 2012. So what is
important here—when you look at September 1st of 2007, okay, and ending
November the 21st 2011, there are several elements that are met here. And why
these dates are important is because of this: On September the 1st of 2007, that’s
when the statute was enacted. So all the acts that occurred—every time—twice a
week, you do the math—he committed the offense of aggravated sexual assault of
a child from 2006 to 2012 hundreds and hundreds and hundreds of times on her.

So he was sexually penetrating her with his penis, with his fingers, from 2006
through 2012.
Now why stop November the 21st, 2011? Well, that’s her—the next day is her
birthday. See, she turns 14 on 2011. So right here she’s under the age of 14, and
he’s obviously over the age of 17.
Id. The appellate court ultimately determined that, given counsel’s argument, the entire jury
charge, and the overwhelming evidence of guilt, it could not conclude that the jury was unable to
11

” Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 12 of 38

infer that at least two acts of abuse occurred between September 1, 2007, and November 21, 2011.
Accordingly, Gomez did not suffer egregious harm from the one erroneous paragraph. Id. at 664.
Here, on federal habeas review, Gomez has not shown how this reasoned adjudication was
contrary to federal law or an unreasonable application of federal law. While the appellate court
determined that one paragraph in the charge was erroneous, the jury was instructed several times
concerning the applicable time-period, why that period was significant, and Gomez received the
limited instruction he requested. On federal review, he simply reargues his contentions found in
his state habeas application. This claim should also be dismissed.
\

Gomez also argues that his indictment was “unconstitutionally amended” in an effort to
“alter” the operative facts of the charge. He complains that the State amended the indictment three
days prior to trial and he “therefore had zero knowledge prior to trial of the exact nature of his
charge.” (Dkt. #1, pg. 41).
Gomez raised this issue on direct appeal, within his petition for discretionary review that
was denied, and his state habeas application. As the Respondent explains, however, claims
regarding the sufficiency of a state indictment are not matters for federal habeas review unless it
can be shown that the defects within the indictment deprives the state court of jurisdiction. See
McKay v. Collins, 12 F.3d 66, 68 (5th Cir. 1994) (“The sufficiency of a state indictment is not a
matter for federal habeas relief unless it can be shown that the indictment is so defective that it
deprives the state court ofjurisdiction.”).
Because the state courts rejected claims concerning the invalidity of Gomez’s indictment,
the courts implicitly found that the trial court possessed jurisdiction. See McCotter, 775 F.2d at
598 (“We adhered to the rule that a federal habeas court will not consider such claims 4[w]hen it
appears ... that the sufficiency of the indictment was squarely presented to the highest court of the

12

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 13 of 38

state on appeal, and that court held that the trial court had jurisdiction over the case....”) (internal

I

citations omitted); see also Davis v. Craig, 66 F.3d 319, 1995 WL 534730 *3 (5th Cir. 1995)
(unpublished) (“By denying Davis relief on habeas corpus, the Texas Court of Criminal Appeals
has necessarily, though not expressly, held that Davis’ indictment is sufficient to vest the Texas
trial court with jurisdiction.”). Here, Gomez has not shown that the state court’s adjudications of
his invalid-indictment claims were unreasonable and, importantly, his claim is not cognizable on
federal habeas review. Accordingly, this claim must be dismissed.
3. Cell Phone Photographs
Next, Gomez maintains that the trial court abused its discretion by admitting photographs
from his cell phone wherein Gomez receives oral sex from his wife. He argues that these
photographs were offered only to inflame the jury.

Gomez recognizes that this issue was

thoroughly analyzed on direct appeal, but argues that the appellate court’s conclusion—that the
photographs were relevant to his engaging in “voyeurism” and that their high probative value was
not substantially outweighed by the danger of unfair prejudice—was unreasonable. Gomez insists
that there was no probative value attached to the photographs whatsoever.
However, both the intermediate appellate and state habeas courts disagreed. Specifically,
the appellate court reasoned as follows:
At trial, the State asserted that the photographs were relevant because the photographs were
of Appellant’s penis, “and that’s what that little girl had to look at for six years.” And
while the State’s assertion concerning Appellant’s abuse of F.G. is uncontested, we do not
'agree that it was helpful to the jury to view pictures of Appellant’s penis so that it could
/•
see precisely what F.G. saw. .
\
However, we are not bound by this underlying rationale for admissibility. See De La Paz,
279 S.W.3d at 344. An underlying theory of Appellant’s defense was based on his assertion
that his sexual abuse of F.G. took place during the six month period preceding her outcry
and resulted from his being intoxicated. Contrary to'theTimite3"ffmetme~©f-abuse-asserted
by Appellant, F.G. testified that Appellant regularly sexually assaulted her in her bedroom
from 2006 through 2012. When officers searched Appellant’s house they discovered,
13

* Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

P;age 14 of 38

among other things, a $1,200.00 video surveillance system with multiple cameras, one of
which was aimed at F.G.’s bed and the other of which was aimed at the bed in the master
bedroom. The system was connected through the walls to a recording device located in the
master bedroom with a monitor that displayed the various camera feeds. The record
reflects that officers were unsuccessful in recovering past videos recorded by the
surveillance system. Nonetheless, the record also supports that Appellant admitted to
having used the surveillance system on one occasion to record his sexual abuse of F.G.
Consequently, the pictures recovered from Appellant’s cellular phone depicting his wife
performing fellatio on him tend to support the State’s theory that Appellant regularly
engaged in voyeurism. Therefore, the State’s establishing that Appellant engaged in
voyeurism and used his expensive surveillance system to further that end was helpful to
the jury in assessing Appellant’s punishment because it contradicted his assertion that his
sexual abuse of F.G. was limited to a handful of regrettable encounters as a result of being
intoxicated. Rather, it tends to show that Appellant invested a substantial sum of money
and time installing a video system to record himself sexually abusing F.G. Accordingly,
we conclude that the trial court did not err in overruling Appellant’s relevance objection to
these exhibits.
Gomez, 459 S.W.3d at 658-59.
The Fifth Circuit has repeatedly held that claims of trial court error may justify federal
habeas relief if the error “is of such magnitude as to constitute a denial of fundamental fairness
under the due process clause.” See Krajcovic v. Director, 2017 WL 3974251 at *6 (E.D. Tex. June
30, 2017) (quoting Skillern v. Estelle, 720 F.2d 839, 852 (5th Cir. 1983)); see also Brecht v.
Abrahamson, 507 U.S. 619, 637-38 (1993) (To be actionable in federal court, the trial court error
must have “had substantial and injurious effect or influence in determining the jury’s verdict.”).
In other words, Gomez must show that he was prejudiced by the purported trial court error.
Because federal habeas review is limited to whether a defendant’s conviction violated the
Constitution, law, or treaties of the United States, errors of state law—including evidentiary
errors—are not cognizable under federal habeas review. See Hill v. Johnson, 210 F.3d 481, 491
(5th Cir. 2000) (citing Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (“[W]e reemphasize that it
is not the province of a federal habeas court to reexamine state-court determinations on state-law

14

r

Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 15 of 38

questions. In conducting habeas review, a federal court is limited to deciding whether a conviction
violated the Constitution, law, or treaties of the United States.”)).
Here, contrary to Gomez’s assertions, the appellate court found that the photographs had
probative value—value tending to show that he engaged in video voyeurism, especially given the
expensive security camera pointed directly at the victim’s bed where evidence showed that Gomez
repeatedly sexually abused her. The state habeas court rejected the claim as well. Qomez has not
shown how this prejudiced his case—given all the other inculpatory evidence. This claim' should
be dismissed.
4. Prosecutorial Misconduct Claims
Gomez raises several claims of prosecutorial misconduct. The standard for granting federal
habeas relief because of alleged prosecutorial misconduct is “the narrow one of due process, and
not the broad exercise of supervisory power.” Darden v. Wainwright, 477 U.S. 168, 181 (1986).
To prevail on such claims, the petitioner must show that the prosecutor’s actions were so egregious
as to tender the trial fundamentally unfair. See Donnelly v. DeChristoforo, 416 U.S. 637, 643
(1974). His or her actions must have “so infected the trial with unfairness as to make the resulting
conviction a denial of due process.” Darden, 477 U.S. at 181. It is not enough that his or her
actions “were undesirable or even universally condemned.” Id.
a. Referring to the Complainant as the “Victim”
Gomez first states that the prosecutor committed misconduct by referring to the victim as
the “victim.” Specifically, he complains that the prosecutor referred to her as the victim before he
was convicted. He also states that the prosecutor “[elicited] and/or coached witnesses they called
to the stand to refer to the complainant as a ‘victim’ during their testimony.” (Dkt. #1, pg. 29).

15

* Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 16 of 38

He raised this claim in his state habeas application, which was denied. In his memorandum
of law attached to his state habeas application, Gomez relies on Casey v. State, 160 S.W.3d 218,
225 (Tex.Appi—Austin 2005, pet. granted), in support of his contention. In that case, the appellate
court overturned the defendant’s conviction because the jury charge included the word “victim,”
which the court considered an improper comment on the evidence. Casey, 160 S.W.3d at 230.
However, that opinion was subsequently reversed by the Texas Court of Criminal Appeals.
See Casey v. State, 215 S.W.3d 870 (Tex. Crim. App. 2007). The Texas Court of Criminal Appeals
found that “[bjecause the jury charged tracked the language of the statute, the trial court did not
abuse its discretion by including the word ‘victim’ in the charge.” Id. at 887. Accordingly,
Gomez’s reliance on a case that was subsequently overturned is misplaced. Moreover, both cases
did not concern the prosecutor articulating the word “victim” in the trial; rather, the cases
concerned the language in the jury charge. Accordingly, Gomez’s insistance on a case regarding
the use of “victim” within the jury charge does not apply to his particular claims. His claim that
the prosecutor coached witnesses to use the word “victim” is purely conclusory. Conclusory
allegations are insufficient for federal habeas relief. See Ross v. Estelle, 694 F.2d 1008,1012 (5th
Cir. 1983) (conclusory allegations do not raise constitutional issues).
Gomez has not shown how the use of the word “victim” rendered his trial fundamentally
unfair as to demonstrate a reasonable probability that the verdict might have been different had the
word “victim” not been used. See Barrientes v. Johnson, 221 F.3d 741, 753 (5th Cir. 2000).
Furthermore, he has failed to show how the state habeas court’s adjudication of this claim was
unreasonable or contrary to federal law. This claim should therefore be dismissed.

16

' Case: 6:18-cv-00089-RAS-JDL

Document #: 3,3-1

Date Filed: 04/01/2019

Page 17 of 38

\'

b. “Torture”
Like the previous claim, Gomez opines that his rights were violated when the prosecutor
repeatedly—during his closing argument—used the term “torture” or the phrase “life of sexual
torture.”
“A prosecutor is confined in closing argument to discussing properly admitted evidence
and any reasonable inferences or conclusions that can be drawn from that evidence.” United States
v. Vargas, 580 F.3d 274, 278 (5th Cir. 2009). The sole purpose of closing arguments is to assist
the jury in analyzing, evaluating, and applying the evidence. See United States v. Dorr, 636 F.2d
117, 120 (5th Cir. Unit Feb. 1981).
Here, a review of the prosecutor’s closing argument shows that he argued that the victim
lived a life of “torture” and a “life of sexual torture.” (Dkt. #25, pg. id #1296) (sealed). T4iese.ar.e_
comments derived from the evidence—evidence that Gomez sexually abused the child victim,
multiple times per week for years, beginning when she was only in the second grade. During his
closing argument, the prosecutor highlighted the evidence presented to the jury: the DNA,
testimony from the SANE nurse, harrowing testimony from the victim herself, Gomez’s own
confession, and the extremely expensive video equipment pointed directly at the victim’s very own
bunkbed. Accordingly, his comment that Gomez sexually “tortured” her is a comment stemming
from the evidence presented at trial and assisted the jury in evaluating and applying the evidence.
As it stands, Gomez has neither shown how the state habeas court’s adjudication of this
claim was unreasonable or contrary to federal law nor how these comments affected the fairness
of his trial. This claim should also be dismissed.

17

Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 18 of 38

c. Security System
Gomez further opines that the prosecutor committed misconduct during his opening
statement by stating that he had “encrypted” security equipment, which resulted in investigator’s
inability to present actual images of the alleged crime. Rather, he states, testimony disclosed that
the security equipment was actually damaged—possibly by investigators. Gomez further notes
that the images on the hard drive would have been favorable to him “as the system recorded events
on the day in question.”
This claim is without merit. “The purpose of an opening statement is to tell the jury what
the case is about and to outline the proof.” United States v. Breedlove, 576 F.2d 57, 60 (5th Cir.
1978). A prosecutor’s articulation of what he or she believes the evidence will demonstrate or has
demonstrated is not error. See Ortega v. McCotter, 808 F.2d 406, 410 (5th Cir. 1987). Here, a
review of the prosecutor’s opening statement reveals that he—at the very beginning of his opening
statement—specifically explained to the jury that this was his “opportunity to talk to you about
what the evidence is going to show in this case.” (Dkt. #25, pg. id. #1000) (sealed). Importantly,
Gomez has not connected the word “encrypted” to any unfair prejudice or articulated how that
word prejudiced his trial. In this way, his claim is conclusory and should be dismissed.
Embedded in this claim, Gomez maintains that the prosecutor “failed to produce
exculpatory evidence through the Tyler police Department reports concerning burglaries of the
Petitioner’s home.” (Dkt. #1, pg. 37). It seems that Gomez is arguing that he installed his
expensive security system in his home not to further his sex crimes—but, rather, because there was
evidence of burglaries.
However, Gomez’s Brady claim is meritless.
defendant must satisfy three components:

18

To demonstrate a Brady violation, a

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 19 of, 38

First, the evidence must be favorable to the accused, a standard that includes impeachment
evidence. Second, the State [or, in this case, the Government] must have suppressed the
evidence. Third, the defendant must have been prejudiced. United States v. Hughes, 230
F.3d 815, 819 (5th Cir. 2000). To establish the third element, a defendant must show that
the evidence “could reasonably be taken to put the whole case in such a different light as
to undermine the confidence in the verdict.” Id. (internal quotation marks omitted).
See U.S. v. Fields, 761 F.3d 443, 475 (5th Cir. 2014); see also Brady v. Maryland, 373 U.S. 83
(1963). Here, Gomez has not provided any evidence of Tyler police reports concerning burglaries.
In this way, his Brady claim is conclusory. Moreover, he has not shown that the purported police
report would have been favorable to him—especially considering the evidence that Gomez’s
security cameras were pointed to the victim’s bed, which would not detect burglars. This claim
should be dismissed.
d. Evidence of Items that were not Illegal
Furthermore, Gomez asserts that the “prosecution put on evidence, allegedly due to threats
of death, of various weapons and accessories kept in the Petitioner’s vehicle.” (Dkt. #1, pg. 32).
He insists that there was no evidence placed in the record “of any weapon being drawn, used, or
implemented in the alleged commission of the offense.” Gomez further notes that the State put
evidence into the record concerning his owning pornography and erotic “culpability,” which is
allowed for an adult male—but “in some way equated culpability in the instant case.” Id. Gomez
maintains that such evidence was presented only to bolster the State’s case and prejudice any
defense Gomez may have had.
In Texas, all relevant evidence is admissible. See Lopez v. State, 2008 WL 1904022 *9
(Tex. App.—Houston, May 1,2008) (“At trial, all relevant is admissible unless otherwise excepted
by the Constitution, statute, or other rules.”); see also TEX. R. EVID. 402. Here, the record reflects
that exhibits of Gomez’s possession of handguns and bullets, found when officers searched his
vehicle, were admitted into evidence during the guilt/innocence phase. Defense counsel objected
19

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 20 of 38

based on relevance and extraneous offenses. The State explained that the firearms and accessories
/
s

were relevant because Gomez threatened the child victim by stating that he would kill her or her
mother if she told. (Dkt. #25, pg. id. #1164). The trial court found that the State was not attempting
to introduce an extraneous offense because the victim testified previously that Gomez threatened
to kill her and her mother if she told about his offenses.
While Gomez complains that the evidence of his guns was used to bolster the State’s \
argument, the record supports the trial court’s finding that the evidence was relevant. Even though
he may not have used his weapons during-the commission oTthe-erime, the victim testified that he
threatened to kill her and her mother if she spoke out—thereby rendering evidence of his weapons
relevant.
Furthermore, Gomez’s habeas claims are purely conclusory.

As mentioned, mere

conclusory allegations do not raise constitutional issues in federal habeas proceedings. See
Schlang v. Heard, 691 F.2d 796, 799 (5th Cir. 1982). Gomez does not articulate how these items
were not relevant, admissible evidence—and, while he insists that such evidence prejudiced his
defense, he does not elaborate, demonstrate how it prejudiced his defense, or even articulate what
the defense was that was prejudiced.
Lastly, the issue surrounding the admission of Gomez’s pornography was thoroughly
addressed by the intermediate appellate court, which found that the evidence was relevant and that
the probative value of the evidence—which was high—was not substantially outweighed by unfair
prejudice. Here, Gomez has failed to show that the appellate court and the state habeas court’s
adjudication and rejection of these claims were unreasonable or contrary to federal law. These
claims should be dismissed.

20

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 21 of 38

e. Interjection of Personal Opinions and Derogatory Comments
Gomez further maintains that the prosecutor made improper personal opinions and
derogatory/inflammatory comments during his closing statement at the end of the guilt/innocence
phase. Specifically, he points to the prosecutor calling him a “piece of trash that he is,” stating
that he had a “filthy penis,” was a “filthy child molester,” and a “demon.” Gomez articulates that
these comments were “in no way a summation of the evidence or any logical conclusion thereof.”
(Dkt. #1, pg. 33). He raised these exact claims in his state habeas application, which was denied.
A prosecutor’s use of pejorative language and unflattering characterizations is not improper
when those comments are supported by the evidence. See, e.g., U.S. v. Fields, 483 F.3d 313, 360
(5th Cir. 2007) (finding that the prosecutor’s use of the word “con” to describe the defendant’s
actions was not improper and rejecting Field’s argument that “prosecutors may not engage in
name-calling); U.S. v. Malatesta, 583 F.2d 748, 759 (5th Cir. 1978) (“Unflattering
characterizations of a defendant do not require a new trial when such descriptions are supported
by the evidence.”); see also U.S. v. Cook, 432 F.2d 1093, 1106 (7th Cir. 1970) (finding that the
prosecutor’s remarks about the defendant during closing—that he was a “sub human” with a
“rancid, rotten mind,” and a “true monster”—was not reversible error because “[t]he district
attorney is quite free to comment legitimately and speak fully, although harshly, upon the action
and conduct of the accused, if the evidence supports his comments ...”).
Here, the prosecutor’s remarks and harsh language were reasonable deductions of the
evidence. The evidence in this case was overwhelming: Evidence showed that Gomez sexually
abused his own daughter—using his mouth, penis, and fingers—multiple times a week for about
six years, beginning when she was only in second grade. Accordingly, the prosecutor’s comment

21

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 22 of 38

that Gomez was a “filthy child molester” and had a “filthy penis and fingers” was supported by
the evidence and a reasonable deduction from that evidence. Texas courts have repeatedly upheld
such language. See e.g., Navarro v. State, 2000 WL 1476638 *8-9 (Tex.App.—El Paso 2000)
(unpublished) (“Appellant broke into the home of a woman who was seven months’ pregnant, beat
her about the face, torso, and stomach, and then proceeded to rape her in front of her two children.
We conclude that reference to Appellant as a monster was a reasonable deduction from the
evidence.”); Belton v. State, 900 S.W.2d 886, 898 (Tex.App.—El Paso 1995, pet. refd)
(explaining that the characterization of defendant as “an animal” was supported by the evidence).

\

Further, a review of the trial transcript shows that the prosecutor called Gomez a “demon”
>

during its second closing argument—after defense counsel argued to the jury that the State was
attempting to “demonize” him. (Dkt. #25, pg. id #1312; 1316). Directly responding to opposing
counsel’s argument is proper. See Borjan v. State, 787 S.W.2d 53, 55 (Tex. Crim. App. 1990).
Because the prosecutor’s comments were supported by the evidence or invited by defense counsel,
these claims should be dismissed. Gomez has not demonstrated that the state habeas court’s
adjudication of this claim was unreasonable or contrary to federal law.
f. Right to Remain Silent
Next, Gomez maintains that the prosecutor made comments during both the
guilt/innocence and punishment phases that infringed on his right to remain silent. Specifically,
he highlights that—on closing during the guilt/innocence phase—the prosecutor stated that the
victim was “forced to look at him,” which he says is a reference “directly relating to the fact that
the Petitioner requested a jury trial and asserted his right to confront his accusers.” During
punishment, Gomez argues that the prosecutor called him a “coward” and a “child molesting
coward.” Gomez also takes issue with the prosecutor stating that he does not “even care.” He

22

‘

Case: 6:18-cv-00089-RAS-JDL

Document#: 3,3-1

Date Filed: 04/01/2019

Page 23 of 38

insists that these comments about him being a coward were “due to the fact that the Petitioner
chose not to take the stand in his own defense.” (Dkt. #1, pg. 35-36). Gomez raised these claims
in his state habeas application, which was denied.
Gomez’s claims are misguided and evince a misunderstanding of the prosecutor’s.
arguments. A review of the prosecutor’s closing statement-during-the-guilt/innocence phase
illustrates that the prosecutor commented on how Gomez did not look at the victim as she testified
during trial—but that she had to look at him as he sat at the defense table during her own testimony.
Gomez fails to show that his right to remain silent—as he exercised his right to remain silent and
did not testify—was violated. Furthermore, he wholly failed to show how his right to confront his
accuser was violated as the victim testified and was cross-examinecl by defense counsel. Because
these claims are meritless and Gomez failed to show how the state habeas court’s rejection of this
claim was unreasonable or contrary to federal law, they must be dismissed.
g. Petitioner’s Security System
Next, Gomez contends that the prosecution “misrepresented evidence concerning the
security system placed in the Petitioner’s home as a means to commit further crimes and failed to
produce exculpatory evidence through the Tyler Police Department reports concerning burglaries
of the Petitioner’s home.” (Dkt. #1, pg. 37). As with his other claims, Gomez raised this claim in
his state habeas application, which was denied.
This claim is without merit. A review of the entire trial transcript illustrates that Gomez
installed an expensive security system—equipped with video equipment and monitors pointed at
the victim’s bed. While perhaps there was an additional reason for the security equipment
L
stemming from burglaries in the area, as the Respondent argues, that additional reason does not
make the prosecutor’s argument improper. Because the evidence showed that Gomez installed

23

r
Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 24 of 38

video equipment that pointed to the victim’s bed—when other evidence illustrated that he had sex
with her in that bed—the prosecutor’s argument that such equipment was used in commission of
his crimes, again, derived from the evidence. See Modden v. State, 721 S.W.2d 859, 862 (Tex.
Crim. App. 1986) (en banc) (“Properjury argument must fall within at least one of the following
four areas: (1) summation of the evidence, (2) reasonable deduction from the evidence, (3)
answer to argument of opposing counsel or (4) plea for law enforcement.”) (emphasis added). This
claim should be dismissed.
h. Agreement Between Prosecution and Victim’s Mother
Gomez maintains that the prosecution—to secure testimony against him—entered into an
agreement between the victim’s mother “wherein the witnesses for the State were [guaranteed] the
right to stay in the United States.” He further explains: “what better incentive to stick to your story
than to be allowed to stay in the United States instead of being deported to Mexico.”
As the Respondent states, this claim is purely conclusory and speculative. While he states
that he attached, as exhibit H, a “motion” to reveal this agreement filed by his attorney, there is no
“exhibit H” attached to his petition.

Accordingly, Gomez points to nothing in the record

supporting this contention and it must be dismissed.
B. Ineffective Assistance of Counsel Claims

V
\

\/

Gomez raises many claims of ineffective assistance of counsel. As mentioned, he must
demonstrate both deficient performance and ensuing prejudice. Strickland, 466 U.S. 668.
1. Community Supervision

\I

In his first claim of ineffective assistance of counsel, Gomez insists that trial counsel was
ineffective for advising him that he was eligible for community supervision when community
supervision was not applicable. According to Gomez, “this led to the erroneous belief by the

24

Case: 6:18-cv-00089-RAS-JDL

Document #: 3.3-1

Date Filed: 04/01/2019

Page 25 of 38

Petitioner that his only option available was a jury trial if he desired to be released from jail.” (Dkt.
#1, pg-15).
Gomez raised this claim in his state habeas application, which was denied. Importantly,
trial counsel provided an affidavit directly responding to this claim, which reads as follows:
Ground Three: Ineffective Assistance of Counsel Due to Alleged Advice Regarding
Community Supervision
I did not advise Mr. Gomez that he was probation eligible for the indicted offense. Just the
opposite, I consistently , advised him, with the assistance of an interpreter, that if he were
convicted of the indicted offense that any time imposed would be served on a day-for-day
basis and he would not be eligible for parole of probation or any other kind of release before
the sentence had been serve[d] on a day-for-day basis without credit of good conduct or
other similar consideration.
Mr. Gomez claims that because his native language is Spanish he did not understand the
applicability of probation or parole. This is not true. Whether it was in court or at the jail,
there was always a certified interpreter who translated for Gomez. Mr. Gomez never
indicated any problems with understanding what was happening before, during or after
trial. He consistently indicated he understood and agreed with what he was being told.
Mr. Gomez claims that I advised him that he would be probation eligible from a jury if he
went to trial. I never advised Mr. Gomez that he would be eligible for probation or parole
if he was convicted of the indicted offense. I did advise him that there was an
overwhelming amount of inculpatory evidence but that I would go forward if that was what
he wanted to do. I explained to him, with the assistance of an interpreter, that it was
possible but highly unlikely that a jury might convict him of a lesser included offense. And
if they convicted him of any lesser included offense I was filing an application for
community supervision in that unlikely event. I went over with him the legal grounds for
submitting a possible charge with one or more lesser included offenses. But I always
stressed that this was probably not going to happen based on the evidence I reviewed with
him.
Prior to appearing in court for the ex parte hearing[,] I met with Mr. Gomez on multiple
occasions with the assistance of an interpreter. I took over the responsibility as Mr. Gomez
from another court-appointed attorney, Mr. Clifton Roberson. Mr. Roberson informed me
that Mr. Gomez had conditionally agreed to the 40 year offer from the State. I met with
Mr. Gomez and he told me that if I met with his daughter (the complainant in the
indictment) and if she said she would testify at trial consistently with her outcry statements
that he would accept the 40-year sentence offered by the State. I arranged with his
daughter’s attorney ad litem to meet with them at her school. She told me unequivocally
that her testimony would be the same as her outcry statements. Additionally^] she told of

25

Case: 6:18-cv-00089-RAS-JDL

Document #: 3*3-1

Date Filed: 04/01/2019

Page 26 of 38

evidence regarding the timing of her outcry that was not introduced at trial. I shared that
evidence with Mr. Gomez and informed her that her testimony was consistent and credible.
After I informed Mr. Gomez of this meetingf,] he told me that he changed his mind and
wanted a jury trial. I told him that he had no factual or legal defenses but that I would do
my best to find reasonable doubt in the State’s evidence and preserve any errors for appeal.
I told him that he was likely to get more than the 40 years offered by the State and he
indicated he understood, but wanted to proceed with a jury in spite of my advice and the
evidence.
(Dkt. #26, pg. id. #1896-98) (sealed).
The state habeas court rejected this claim, revealing implicit credibility choices in favor of
trial counsel’s affidavit, which are presumed correct in this forum. This adjudication is entitled to
deference and Gomez has wholly failed to explain—or demonstrate—that the state court’s
adjudication of this claim was unreasonable or contrary to federal law. See Marshall v. Lonberger,
459 U.S. 422, 433 (1983) (applying presumption of correctness to an implicit finding against the
defendant’s credibility where that finding was necessarily part of the court’s rejection of the
defendant’s claim); see also Young v. Dretke, 356 F.3d 616, 629 (5th Cir. 2004) (explaining that,
“[a]s a federal court, we are bound by the state habeas court’s factual findings, both implicit and
explicit.”); Becerril v. Quarterman, 2007 WL 1701869 *4 (S.D. Tex.—Houston Jun. 11, 2007)
(“The Texas Court of Criminal Appeals adopted the trial court’s findings when it denied relief. A
federal court is bound by the state habeas court’s factual findings, both implicit and explicit.”)
(citation omitted).
As Respondent explains, Gomez bases his claim on trial counsel’s filing of an “application
for community supervision from the jury.” (Dkt. #25, pg. id. #271). However, as trial counsel
explained in his affidavit, he advised Gomez that in the unlikely event the jury convicted him of a
lesser-included offense, trial counsel anticipated filing an application for community supervision.
The record demonstrates that he filed the application in the event that Gomez was convicted. Id.

26

Case: 6:18-cv-00089-RAS-JDL

Document#: 3?-l

Date Filed: 04/01/2019

Page 27 of 38

Crucially, the filing of this application for community supervision in no way detracts from trial
counsel’s statement that he did not advise Gomez that he would actually receive community
supervision if convicted. Counsel’s affidavit shows that he was properly advising Gomez of all
possibilities—further explaining to him that the evidence against him was overwhelming, but that
he would do his best at trial. Gomez has neither shown that counsel was ineffective nor that the
state habeas court’s adjudication of this claim was unreasonable or contrary to federal law.
Therefore, this claim should be dismissed.
2. Failure to Object
Gomez further maintains that counsel was ineffective for failing to object on several
occasions. Specifically, he argues that counsel was ineffective for failing to object to {L)_the
.prosecutor referring to the.“complainant’- as the “victim,” (2)-the prosecutor’s usage, of the word
“torture,” (3) the “entry of items legal for the petitioner to own and/or possess and with no direct
nexus to the alleged offense or alleged indictment,” (4) the numerous “derogatory, inflammatory,
and improper comments” by the prosecutor during the guilt/innocence phase, and (5) improper
comments during closing arguments.
As with his other habeas claims, Gomez raised these in his state habeas application, which
were denied. Trial counsel directly responded to these claims in his affidavit, as follows:
Mr. Gomez claims that I did not object to the complainant being referred to as a victim.
The record reflects that I vigorously and zealously defended Mr. Gomez to the best of my
ability. I do not believe that objecting to the term victim would have changed the outcome
of the trial and it would have given the State opportunities to rephrase and reargue their
points to the jury.
Mr. Gomez claims that I should have objected to the State’s use of the word torture and
other derogatory terms made in the State’s opening and closing statements. The record
reflects that I tried to use the State’s statements as a way to illustrate to the jury how the
State was trying to demonize Mr. Gomez. (13 R.R. at 131-32). Furthermore, the charge of
the court clearly pointed out that the opening and closing statements were not to be
considered as evidence by the jury. I do not believe that objecting to the State’s statements
27

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 28 of 38

in opening and closing arguments would have changed the outcome and would have
possibly undermined the strategy of attacking the State for overstating their case.

Objecting to'the State’s statement during closing argument would have merely allowed the
State to repeat and emphasize their characterizations of Mr. Gomez. I did my best to
counter their statements but I do not believe any objections would have changed the
outcome.

I objected when I believed it would help Mr. Gomez and the case we were presenting.
Objecting during the State’s closing argument would likely have given the State additional
emphasis to their point by allowing them to rephrase and argue basically the same point.
The State’s argument was not evidence and I do not believe it contributed to the sentence
the jury imposed because I believe they followed the Court’s instructions and deliberated
on the evidence and the law. The outcome was not what Mr. Gomez or I wanted but it was
based on the law and facts.
(Dkt. #26, pg. id. #1898-1900) (sealed). The state habeas court rendered an implicit credibility
choice in favor of counsel and rejected Gomez’s claims—an adjudication entitled to deference.
A review of the entire record illustrates that the state habeas court’s adjudications of these
claims were not unreasonable. A conscious and informed decision on trial tactics and strategy
cannot be the basis for constitutionally ineffective assistance of counsel unless it is so ill chosen
that it permeates the entire trial with obvious unfairness.” Crane v. Johnson, 178 F.3d 309, 314
(5th Cir. 1999) (quoting Garland v. Maggio, 111 F.2d 199, 206 (5th Cir. 1983)); Strickland, 466
U.S. at 690 (“[Strategic choices made after thorough investigation of the law and facts relevant to
plausible options are virtually unchallengeable.”).
The Fifth Circuit has stated that it “will not find ineffective assistance of counsel merely
because we disagree with counsel’s trial strategy.” Id. at 312. Moreover, an informed decision to
forgo presenting “double-edged” evidence—one that could either help or harm a defendant—is
reasonable trial strategy. See Hopkins v. Cockrell, 325 F.3d 579, 586 (5th Cir. 2003) (“This Court

28

Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 29 of 38

has repeatedly denied claims of ineffective assistance of counsel for failure to present ‘double
edged’ evidence where counsel has made an informed decision not to present it.”).
Importantly, when reviewing counsel’s decisions, it is crucial that federal courts do not
engage in second-guessing, or “Monday morning quarterbacking”—as it is far too easy or tempting
to criticize conduct in hindsight:
Judicial scrutiny of counsel’s performance must be highly deferential, and a fair
assessment of attorney performance requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel’s perspective at the time. A court must
indulge a strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.
Strickland, 466 U.S. at 669; see also U.S. v. Faubion, 19 F.3d 226, 232 (5th Cir. 1994) (“We
recognize the tendency, when all else fails, to blame the lawyer. With that in mind, it bears
repeating: Representation is an art, and an act or omission that is unprofessional in one case may
be sound or even brilliant in another. As we have indicated in the past, the acuity of hindsight is
not our proper lens.”) (internal quotations'and citations omitted).
The Court would be remiss not to further highlight how counsel cannot be ineffective for
failing to make a meritless objection or argument. See Wood. v. Quarterman, 503 F.3d 408, 413
(5th Cir. 2007) (explaining that counsel cannot be constitutionally ineffective for failing to raise a
meritless argument).
Here, counsel’s affidavit demonstrates that he reasonably believed that objecting to all of
the prosecutor’s chosen words would have harmed Gomez’s case more than it could have helped
him. As counsel explained, if he had objected to the use of “victim” or “torture,” the State would
likely have been given an opportunity to rephrase—which, undoubtedly, would have called further
attention to the words Gomez complains about and would have allowed the State to further
emphasize their characterizations of him by reiterating the same argument with, perhaps, a
29

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 30 of 38

different term.
Furthermore, as mentioned above, a prosecutor’s use of pejorative language and
unflattering characterizations is not improper when those comments are supported by the evidence.
Fields, 483. F.3d at 360 (emphasis added). The prosecutor’s usage of the words “victim,” “torture”
and other derogatory terms stemmed directly from the overwhelming inculpatory evidence
presented at trial. Because those comments and words were supported by the evidence, counsel
cannot be ineffective for failing to raise a meritless objection. See Green v. Johnson, 160 F.3d
1029, 1037 (5th Cir. 1998) (“Because failure to make a frivolous objection does not cause
counsel’s performance to fall below an objective level of reasonableness, see Sones v. Hargett, 61
F.3d 410, 415 n. 5 (5th Cir. 1995), Green has not established deficient performance.”).
Additionally, Gomez has not shown—or articulated—how he was prejudiced by counsel’s failure
to object on these points.
Turning to Gomez’s claim concerning counsel’s failure to object to the “entry of items
legal for the petitioner to own and/or possess and with no direct nexus to the alleged offense or
alleged indictment,” the court notes that this claim is likewise meritless. Specifically, Gomez
maintains that his possessing various handguns, bullets, and gun accessories was not illegal and
such items were not used in the commission of the alleged offense. The state habeas court rejected
this claim after trial counsel directly responded to it, which reads as follows:
It is beyond ironic that Mr. Gomez is now claiming that I should have objected to this
evidence being admitted, because he was responsible for giving the State the evidence.
During the trial[,] Mr. Gomez instructed me to retrieve a cell phone that was in his vehicle
that was in police custody. I told him that I didn’t think it was a good idea but if he wanted .
me to retrieve it I would do so. I went to the Tyler'Police Department impound yard and
they located and took into evidence the cell phone that was previously not in evidence and
apparently was unknown to police. The State then used this evidence against Mr. Gomez
in spite of my efforts to dissuade him from retrieving it. He knew what was on it and did
^not seem surprised when the'evidence was introduced. I can only speculate as to why he
did this.
<
(

I
30

l

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 31 of 38

(Dkt. #26, pg. id. #1899-1900) (sealed).
In Texas, the State may introduce evidence of extraneous offenses or bad acts during the
punishment phase, after a defendant is found guilty. See Tex. Crim. Pro. Art. 37.07, Sec. 3(a)(1).
The article specifically denotes, in pertinent part:
Regardless of the plea and whether punishment be assessed by the judge or the jury,
evidence may be offered by the state and the defendant as to any matter ,the court deems
relevant to sentencing, including but not limited to the prior criminal record of the
defendant, his general reputation, his character, an opinion regarding his character, the
circumstances of the offense for which he is being tried, and, notwithstanding Rules 404
and 405, Texas Rules of Evidence, any other evidence of an extraneous crime or bad act
that is shown beyond a reasonable doubt by evidence to have been committed by the
defendant or for which he could be held criminally liable, regardless of whether he has
previously been charged with or finally convicted of the crime or act.
Id:, see also Harris v. State, 2019 WL 1141866 (Tex. Crim. App. Mar. 13, 2019) (unpublished)
(“Article 37.07 of the Texas Code of Criminal Procedure authorizes consideration of several
factors during punishment, including a defendant’s prior criminal record, the circumstances of the
offense for which he is being tried, his general reputation, and his character.”); Beham v. State,
559 S.W.3d 474, 479 (Tex. Crim. App. 2018) (“Generalizing, we have said that evidence ‘is
relevant to sentencing,’ within the meaning of the statute, if it is ‘helpful to the jury in determining
the appropriate sentence for a particular defendant in a particular case.’”); Sims v. State, 273
S.W.3d 291, 295 (Tex. Crim. App. 2008) (“explaining that “[t]he Legislature has expressly
provided that ‘relevant’ punishment evidence includes, but is not limited to, both character
evidence in the form of an opinion testimony as well as extraneous-offense evidence.”).
Here, a review of the trial transcript demonstrates that the State presented evidence—in the
form of photographs from Gomez’s cell phone—of his possession of a firearm, magazines, and
invalid identification cards from Utah, Texas, and Mexico. As it stands, however, Gomez fails to
show that an objection on these points would have been meritorious—because as explained above,
31

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 32 of 38

such evidence is permitted during the punishment phase. He also failed to show how objecting to
admissible evidence would have changed the outcome of the trial or sentence given the
overwhelming evidence of guilt. This claim should be dismissed.
3. Failure to “Put on” Evidence/Failure to Call Witnesses
Next, Gomez further asserts that counsel was ineffective for failing to put on evidence
during the guilt/innocence phase. Specifically, he states that “defense counsel failed to call ANY
witnesses on guilt/innocence.” He further notes that this was relevant because his wife initially
denied having sex with Gomez on the victim’s bed, but later admitted to doing so. Gomez believes
that trial counsel should have called his wife and his girlfriend to the stand during the
guilt/innocence phase, which would have shown that he was at a different location during the
commission of the offense.
Defense counsel directly responded to this claim before the state habeas court denied relief.
Defense counsel explained, as follows:
The decision not to call any witnesses on guilt/innocence was made by Mr. Gomez after
we consulted at the end of the State’s case. Between the credible testimony of his daughter
and the playing of the video where Mr. Gomez told detectives that if his daughter said he
did it then it must be true, there wasn’t any evidence that could have been presented to
effectively counter the State’s case at guilt/innocence. Instead, the decision was made to
focus on reasonable doubt arguments.
Mr. Gomez and I discussed the potential testimony of his wife regarding putting on
evidence that they had sex on their daughter’s bed. He agreed that this would likely make
the jury more upset because DNA was not the determining factor. Rather it was the
credibility of his daughter’s testimony. Mr. Gomez agreed with the strategy to not call
witnesses at the punishment phase. Nothing they testified to at punishment would have
changed the outcome at guilt/innocence.
(Dkt. #26, pg. id. #1900-01) (sealed). Once again, the state habeas court made an implicit
credibility finding in favor of counsel—which must be given deference.

32

/ •

4:

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 33 of 38

To demonstrate that counsel was ineffective for failing to call a witness, the petitioner must
show “not only that this testimony would have been favorable, but also that the witness would
have testified at trial.” See Alexander v. McCotter, 775 F.2d 595, 602 (5th Cir. 1985) (citing
Gomez v. McKaskie, 734 F.2d 1107, 1109-10 (5th Cir.), cert, denied, 469 U.S. 1041 (1984)
(petitioner failed to meet his burden showing that uncalled witnesses would have testified
favorably to petitioner’s case)). Moreover, the petitioner must name the witness, demonstrate that
the witness was available to testify at trial, and as mentioned, show that that such testimony would
have been favorable to a particular defense. See Day v. Quarterman, 566 F.3d 527, 538 (5th Cir.'
2009). The Fifth Circuit has repeatedly noted that:
Complaints of uncalled witnesses are not favored in federal habeas corpus review because
allegations of what a witness would have testified are largely speculative. Where only the
evidence of a missing witnesses’ testimony is from the defendant, this Court views claims
of ineffective assistance with great caution.
Sayre v. Anderson, 238 F.3d 631, 635-36 (5th Cir. 2001) (quoting Lockhart v. McCotter, 782 F.2d
1275, 1282 (5th Cir. 1986)); U.S. v. Fields, 761 F.3d 443, 461 (5th Cir. 2014); Evans v. Cockrell,
285 F.3d.370, 377 (5th Cir. 2002).

In the same vein, the Fifth Circuit has also held that

“hypothetical or theoretical testimony will not justify the issuance of a writ: Rather, the petitioner
must demonstrate that the ‘might have beens’ would have been important enough to affect the
proceedings’ reliability.” Martin v. McCotter, 796 F.2d 813, 819 (5th Cir. 1986) (internal citation
and quotations omitted).

\

\:

Here, Gomez cannot demonstrate that these purported witness testimonies would have been
favorable to him. As trial counsel explained, calling his wife to the stand to testify about them
having sex on the victim’s bed could have further inflamed the jury. This Court will not secondguess reasonable trial strategy. Gomez further fails to show that the state court’s adjudication of
this claim was unreasonable.
33

('<,-y
\".
\

*

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 34 of 38

Moreover, Gomez insists that these uncalled witnesses would have shown that he “was at
a different location” during the commission of the offense.

This argument is extremely

problematic in light of the evidence adduced at trial—which demonstrated that Gomez sexually
abused his daughter multiple times per week over the course of about six years. Gomez allegedly
being at a “different location at the time of the offense” overlooks the fact that the evidence showed
that he repeatedly and routinely sexually abused the child victim. His allegedly being at another
location on one occasion does not refute the overwhelming evidence that he abused the victim

V-

multiple times per week for years. This claim must be dismissed.
4. Failure to Investigate
Gomez insists that counsel was ineffective for failing to “investigate electronic devices
alleged to have been ‘encrypted’ by the prosecution and object to improper opening statements
alleging such conduct to have been committed by the petitioner to HIDE evidence.” (Dkt. #1, pg.
20). He states that his “electronic storage devices” were damaged, rather than encrypted, possibly
by prosecutors. The state habeas court rejected this claim after trial counsel explained the
following:

-

This allegation refers to security equipment that Mr. Gomez installed at his home. Even in
hindsight, this matter is at most insignificant and was not harmful to the defense I presented
on behalf of Mr. Gomez. The opening statement was not evidence and the fact that the
State overstated their case was not going to hurt our case.

(Dkt. #26, pg. id. #1899). Gomez wholly fails to show how the rejection of this claim was
unreasonable or contrary to federal law. Whether the devices were encrypted or damaged is
inconsequential in light of all the other inculpatory evidence presented at trial.

Furthermore,

Gomez fails to show that he was prejudiced by the prosecutor’s comments during opening
statements—which were not evidence. This claim must be dismissed.

34

\

r

# ~ Case: 6:18-cv-00089-RAS-JDL

Document#: 33-1

Date Filed: 04/01/2019

Page 35 of 38

* /

5. Overwhelming Evidence of Guilt
Because the facts in this case overwhelmingly demonstrate Gomez’s guilt, he simply
cannot demonstrate ineffective assistance of counsel. A claim of ineffective assistance of counsel
will fail “if the facts against adduced at trial point so overwhelmingly to the defendant’s guilt that
even the most competent attorney would be unlikely to have obtained an acquittal.” See Green v.
Lynaugh, 868 F.2d 176, 177 (5th Cir. 1989); see also Salazar v. Quarterman, 260 F. App’x 643,
650 (5th Cir. 2007) (citing Green, 868 F.2d at 177) (unpublished) Jones v. Jones, 163 F.3d 285,
304 (5th Cir. 1998) (same).
Here, the record supports the state court’s finding that Gomez is guilty of continuous sexual
assault of a child. The evidence presented at trial shows that Gomez admitted to sexually abusing
the victim—though he stated that he did so due to intoxication. Gomez even stated that if the
victim said he “did it,” then it must be true. Moreover, the evidence illustrated that Gomez
purchased an expensive surveillance system and installed cameras that directly pointed at the
victim’s bed. The victim testified at length and her testimony was damaging to Gomez’s defense.
Gomez’s trial attorney even explained to him that the evidence against him was overwhelming and
presented the best defense he could. Simply because Gomez is unhappy with the outcome does
not render counsel constitutionally ineffective. Ultimately, the weight of the evidence was so
challenging that even the most competent attorney would have been unlikely to obtain an acquittal.
Accordingly, all of Gomez’s claims blaming counsel fail. See Strickland, 466 U.S. at 696
(explaining that a court analyzing a claim of ineffective assistance “must consider the totality of
the evidence before the judge or jury.”).

35

>

r

*

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 36 of 38

VI. Conclusion
Gomez has failed to show that the state habeas court’s adjudication of her claims resulted
in a decision that was contrary to or involved an unreasonable application of clearly established
federal law, as determined by the United States Supreme Court, or resulted in a decision based on
an unreasonable determination of the facts in light of the evidence presented in the state court
proceeding. His federal petition for a writ of habeas corpus should be denied.
VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Gomez has not yet filed a notice of appeal, the court
may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a. substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”

36

9

Case: 6:18-cv-00089-RAS-JDL

Document #: 33-1

Date Filed: 04/01/2019

Page 37 of 38

and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[w]hen the
district court denied relief on procedural grounds, the petitioner seeking a COA must further show
\

that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012)).
Here, Gomez failed to present a substantial showing of a denial of a constitutional right or
that the issues he has presented are debatable among jurists of reason. He also failed to demonstrate
that a court could resolve the issues in a different manner or that questions exist warranting further
proceedings. Accordingly, he is not entitled to a certificate of appealability.
RECOMMENDATION
For the foregoing reasons, it is recommended that the above-styled application for the writ
of habeas corpus be denied. It is further recommended that Petitioner Gomez be denied a
certificate of appeal sua sponte.
Within fourteen (14) days after receipt of the Magistrate Judge's Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
A party's failure to file written objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. AutoAss'n., 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).

37

